HHS/OIG, Audit -"Review of South Dakota's Accounts Receivable System for Medicaid Provider
Overpayments,"(A-07-05-03072)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of South Dakota's Accounts Receivable System for Medicaid Provider Overpayments," (A-07-05-03072)
June 8, 2005
Complete
Text of Report is available in PDF format (786 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine if the State agency reported
Medicaid provider overpayments pursuant to Federal regulations.  We found that the
State agency did not report all or part of 342 Medicaid provider overpayments due before or during
FY 2003 pursuant to Federal regulations.  The State agency did not have sufficient policies
and procedures in place to ensure it reported all overpayments pursuant to Federal regulations.  As
of January 14, 2005, the State agency had not reported provider overpayments totaling $229,792. Of
that amount, the State agency had not returned the Federal
share totaling $154,741.
We recommended the State agency should: (1) return to the Federal Government
$154,741 of overpayments as soon as possible, (2) ensure the Federal share of all Medicaid provider
overpayments is returned within established timeframes, and (3) strengthen policies and procedures
to ensure it reports overpayments pursuant to Federal regulations.  Although
the State agency agreed with two of our findings, it disagreed with the amount of overpayments, including
three overpayments it claimed it made to individuals rather than providers.